@OQCKLE

E-Mail Address:
VAL i Briefs ae
E contact@cocklelegalbriefs.com
st. 1923,

1-800-225-6964 Web Site
(402) 342-2831 www.cocklelegalbriefs.com

Fax: (402) 342-4850

2311 Douglas Street
Omaha, Nebraska 68102-1214

No. 20-493

YSLETA DEL SUR PUEBLO, THE TRIBAL COUNCIL,
THE TRIBAL GOVERNOR MICHAEL SILVAS
OR HIS SUCCESSOR,
Petitioners,
v.
STATE OF TEXAS,
Respondent.
CERTIFICATE OF COMPLIANCE

As required by Supreme Court Rule 33.1(h), I certify that the BRIEF OF AMICI CURIAE
ALABAMA-COUSHATTA TRIBE OF TEXAS, NATIONAL CONGRESS OF AMERICAN
INDIANS, NATIONAL INDIAN GAMING ASSOCIATION, and USET SOVEREIGNTY
PROTECTION FUND IN SUPPORT OF PETITION FOR CERTIORARI in the above entitled
case complies with the typeface requirement of Supreme Court Rule 33.1(b), being prepared in
New Century Schoolbook 12 point for the text and 10 point for the footnotes, and this brief
contains 5784 words, excluding the parts that are exempted by Supreme Court Rule 33.1(d), as

needed.

Subscribed and sworn to before me this 3rd day of November, 2020.
I am duly authorized under the laws of the State of Nebraska to administer oaths.

pense | Kevce. Q.taoo Qnduneh Ohl

My Comm. Exp. September 5, 2023
Notary Public Affiant 40313

 
